[■

10

No.:

In The
Supreme Coart of the United States
_____________ .
Term, 2020

SIMON QUINN — Appellant
v.

_^

0 O' P

SXATCOFLOCTaAWA—App^b^r yi fi f;0' Q fMl M t

1:n%1 HB0E!-i9Rpfi h

On Petition for a Writ of Certiorari to
LOUISIANA SUPREME COURT

FILED
NOV 2 3 2020

Simon Quinn #172821
MPEY/Spruce-3
La State Peuitentiary
Angola, LA 70712

PREPARES SR
David Const ance #304580
Offender Counsel Substitute Ill
Main Prison Legal Aid Office
Criminal Litigation Team
La. State Fenitentiaiy
Angola, LA 70712

1

V

QUESTIONS) PRESENTED
1. Reasonable jurist would debate that the State failed to meet its burden of proof of
beyond a reasonable doubt that Mr. Quinn is guilty of the offense beyond a reasonable
doubt.
2. Reasonable jurists would conclude that knowledge of the probability of a cfiminal

investigation and specific intent to distort a criminal investigation are required
dements of Obstruction of Justice. Here, the State cannot prove there was a homicide,
rather than suicide. Even if the State has shown Mr. Quinn moved his friend’s body, it
has failed to show that Mr. Quinn acted with require knowledge and intent related to
a homicide investigation, rather than acting to avoid police discovering an outstanding
warrant. Is there sufficient evidence to support a conviction of obstruction of a
homicide investigation?

LIST OF PARTIES
[ ]

All parties appear iu the caption of the case on the cover page.

[ X ] All parties do not appear in the caption of the case on the cover page. A list of all parties to die
proceeding in die court whose judgment is the subject of this petition is as follows.
District Attorney's Office
Parish of Terrebonne
7856 Main St., Ste. 220
Houma, LA 70360
Jeff Landry - Louisiana Attorney General
P.O. Box 94005
Baton Rouge, LA 70804-9005
Darrel Vaunoy, Warden
Louisiana State Penitentiary
General Delivery
Angola, LA 70712

/

*

TABLE OF CONTENTS:

Page

PROOF OF SERVICE
QUESTIONS) PRESENTED
LIST OF PARTIES
INDEX TO APPENDICES................................................................
TABLE OF AUTHORITIES..............................................................
OPINIONS.......................................................................................
JURISDICTION...............................................................................
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
NOTICE OF PRO-SE FILING..........................................................
REASONS FOR GRANTING THE PETITION.................................
STATEMENT OF THE CASE...........................................................
STATEMENT OF THE FACTS.........................................................
STANDARD OF REVIEW...............................................................
LAW AND ARGUMENT.................................................................
ISSUE NO. 1....................................................................................

n
111

1
2

1
I
1
2
3
4
4
.4

A. The evidence was insufficient to sustain Mr. Quinn’s conviction of Obstruction of
Justice.
4
B. Because the State was unable to rule out Suicide, it could not prove the necessary
specific intent and knowledge dements of Obstruction. Without proof of ait four
dements there was insufficient evidence to convict..
11
C. The State’s burden was to prove that Mr. Quinn was guilty of Obstruction of Justice
by tampering with evidence in a Murder investigation, not Just obstructing any type of
criminal investigation.
13
i) The rules of statutory interpretation support the idea that the State had to prove Mr.
Quinn was guilty of knowingly and intentionally obstructing a murder investigation or
proceeding
16
ii) The State failed to prove Mr. Quinn had knowledge or specifically intended to distort a
17
murder investigation or proceeding.
D. The Courts has recognized that the crime of Obstruction of Justice by tampering
with evidence is necessarily connected to another crime. If the conviction for the
underlying conviction is vacated, as Mr. Quinn’s murder conviction has been, the
conviction for Obstruction mnst also fall
19
20
24

SUMMARY.....
CONCLUSION.

\V^epd05VCS\jp-cfconstenos80\J^y DoajmaTtsVdiente\Q\Qilim Simon #i?282i\Quim Simon USCERTodt

Joseph Kurzv. Darrel lannqy, Warden

i.

INDEX TO APPENDICES
APPENDIX A

Original Briefby Counsel;

APPENDIX B

Defendant's Pro-Se Supplemental Brief on Appeal;

APPENDIX C

Ruling First Circuit Court of Appeal;

APPENDIX D

Pro-Se Writ Application to the Louisiana Supreme Court;

APPENDIX E

Supreme Court Ruling;

APPENDIX F

Pro-Se Brief on the Merits: Writ of Certiorari;

APPENDIX G

Counseled Supplemental Brief on the Merits;

APPENDIX H

Ruling Louisiana Supreme Court.

\^epc©5\ICSVp-dcorwtnrKe80\N1y Documents^ lents\Q\CX»nn Simon # 1 ?2821\Qiim Simon USCERTodt

Joseph Kurzv. Darrel Ifcmqy, Warden

ii.

TABLE OF AUTHORITIES:

Page

U.S. CONSTITUTION:
Fifth, Sixth arid Fourteenth Amendments to the United States Constitution.

1

Fourteenth Amendment to the United States Constitution.........................

1,6

Sixth and Fourteenth Amendments to die United States Constitution.......

1,10

FEDERAL CASES:
Cavazos v. Smith, 132 S.Ct. 2,6,181 L.Ed.2d 311 (2011)....................

8

Coleman v. Johnson, 132 S.Ct. 2060,2064,182 L.Etl2d 978 (2012).....

8

Dupuy v. Cain, 210 F.3d 582 (5th Cir. 2000)........................................

6

Haines v. Kenier, 404 U.S. 519,92 S.Ct. 594,30 L.Ed.2d 652 (1972).....

1

In re Winship, 397 U.S. 358,90 S.Ct. 1068,25 L.Ed2d 368 (1970).......

6,20

Jackson v. Virginia, 443 U.S. 307,99 S.Ct. 2781,61 L.Ed.2d6Q (1979).

passim

United States v. Jaramilio, 42 F.3d 920 (5th Ck 1995)..........................

7

United States v. Ortega Reyna, 148 F.3d 540 (5th Cir. 1998)..................

7

United States v. Penaloza-Duarte, 473 F.3d 575 (5th Ck 2006).............

7

United States v. Stewart, 145 F.3d 273 (5th Cir. 1998)..........................

7

STATUTORV PROVISIONS:
LSA-R.3.14:10(1)...............

11

LSA-R.S. 14:130 B(l).........

1

LSA-R.S. 14:13 0.1 (B)( l)-(3).

17

LSA-R.S. 14:3.....................
LSA-R.S. 14:30.1................

L 17
1

LSA-R.S. 15:438.................

,4,8

LSA-R.S. 8:652...................

18

Rule X. § (b) and (c)............

1

\V^«^xl05\ICS\jp-ckxiTOtonCT!80Wy DocumenteVdlents\Q\CXiinn Simon # 172821\Qulm Simon USCERTodt
iii
Joseph Kurzv. Darrel Vatmqy, Warden

STATE CASES:
Smith v. Schwander, 345 So.2d 1173, at 1175 (La. 1977).................................

9

State v. Ashley, 33.880, at *3 (La. App. 2nd Cir. 10/04/00), 768 So.2d 817,819.

4

State v. Calloway, 1 So.3d417,422 (La 1/21/09)...........................................

10

State v. Captville, 448 So.2d 676,680 (La 1984)............................................

10

State v. Celeatine, 671 So.2d 896,898 (La 1996)...........................................

19

State v. Chism, 436 So.2d464 (La 1983).......................................................

9

State v. Copes, 566 So.2d 652,654 (La App. 2nd Cir. 1990)............................

9

State v. Eason, 460 So.2d 1139 (La App. 2nd Cir. 1984).................................

9

State v. Hammontree, 363 So.2d 1364, at 1373 (La 1978)...............................

9

State v. Jones, 2016-K-1502,2108 WL 618433 (La 1/30/18)...........................

4,7,10,11,20

State v. Mtissall, 523 So.2d 1305, 1311 (La 1988)..........................................

.........7,11,20

State v. Perow, 616 So.2d 1336 (La. App. 3rd Cir. 1993).................................

10

State v. Shapiro, pp. 19-20,431 So.2d 372 (La 1982)......................................

9

State v. Smith, 339 So.2d 829, at 833 (La 1976).............................................

9

Stale v. Sutton, 436 So.2d47l (La 1983)........................................................

9

State v. Wright, 445 So.2d 1198 (La 1984)....................................................

9

MISCELLANEOUS:
110kll59.6.

,...10,20

110K745...

8

2 C. Wright, Fed. Practice & Pro., Criminal 2d § 467 at 660-61 and n.23 (2d ed. 1982)....7, 11, 20
Criminal Law Key 110kll59.2(l).

7

Criminal Law Key 110kll59.2(8).

7

\^<^i05VCS\Jp-ckxxTstfince80\My [>xumerte\dlente\Q\Odnn Simon # 1 ?2821\Qnlm Simon USCERT.odt

Joseph Kurzv. Darrel Vannoy, Warden

iv.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Appellant respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[]

For cases from federal courts:
Tire opinion of the United States Court of Appeals appears at Appendix
the petition and is
[ ]
[ ]

[ 3

reported at
or,
has been designated for publication but is not yet reported; or,
is unpublished.

Tire opinion of tire United States district court appears at Appendix
petition and is
[ ]
[ ]
[ 3

to

to the

reported at
;or,
has been designated for publication but is not yet reported; or,
is unpublished

[ X 3 For cases from state courts:
Tire opinion of the highest state court to review the merits appears at Appendix
“H” to the petition and is the Louisiana Supreme Court in Docket Number 2019K-00647 and 2019-KQ-00730.
[ 3
[X]
[ ]

reported at
;or,
has been designated for publication but is not yet reported or,
is unpublished

The opinion of tire First Circuit Court of Appeal appears at Appendix “C* to tire
petition and is
[X]
[3
[ 3

reported at 275 So,3d 360 (La App. 1* Cir. 3/27/19V or,
has been designated tor publication but is not yet reported; or,
is unpublished

\\Mqxto5VCS\Jp-dcoT^flnos80\My Doajm«Tts\dlente\Q\CXilnn Simon # 1 72821\QUnn Simon USCERT.odt
Simon Quinn v. State ofLouisiana
1.

.JURISDICTION
[ ]

For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
[ ]

No petition for rehearing was timely filed in my case.

[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____
, and a copy of the order
denying rehearing appears at Appendix
[ ]
An extension of time to file the petition for a writ of certiorari was granted
to and in chiding
(date) on
(date) in
Application No..
Hie jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

[ X ] For cases from state courts:
Hie date on which the highest state court decided my case was September 9f
2020.
A copy of that decision appears at Appendix “H”.
[ ]

A timely petition for rehearing was thereafter denied on tire following
date:
> and a copy of the order denying rehearing appears at
Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in Application
No.
Hie jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

\V^epd05VCSMp-dcmstanos80\My DoajmentsWlente\Q\CXiinn Simon # 172821\Ou>nn Simon USCERT.odt
Simon Qiimfi v. State ofLouisiana
2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Una conviction was obtained in violation of the Fifth, Sixth and Fourteenth Amendments to the
United States Constitution. Specifically, Mr. Quinn's conviction for Obstruction of Justice (LSA-R.S.
14:130 B(l)) was affirmed even though his conviction for Second Degree Murder (LSA-R.S. 14:30.1)
was overturned by (lie Louisiana First Circuit Court of Appeal, aid the State's Writ was denied by die
Louisiana Supreme Court.
NOTICE OF PRO-SE FILING
Mr. Quinn requests that this Honorable Court view these Claims in accordance with the rulings of
Haines ». Kerner. 404 U.S. 519, 92 S.Ct 594, 30 L.Ed.2d 652 (1972); Mr. Quinn is a layman of the
law and untrained in the ways of filings and proceedings of formal pleadings in this Court.
SEASONS FOR GRANTING THE PETITION
hi accordance with this Court’s Rule X, § (b) and (q), Mr. Quinn presents for his reasons for
granting this writ application that:
Review on a Writ of Certiorari is not a matter of right, but of judicial discretion. A petition for a
Writ of Certiorari will be granted only for compelling reasons. The following, although neither
controlling nor fully measuring the Court's discretion, indicate the character of the reasons the Court
considers.
A ^:ate court of last resort (Louisiana Supreme Court) has decided an important federal question in
away that conflicts with the decision of another state court of last resort or of a United States Court of
Appeals.
A State court or a United States Court of Appeals has decided an important question of federal law
that has net been, but should be, settled by this Court, cr has decided an important federal question in a
way that conflicts with relevant decisions of this Court.

\V^epd05\ICSMp-ctaDnstanc^?0Wy Doa.iments\dlents\Q\Qi<m Simon # 172821\Oufm Simon IKSCERTodt
Simon Qninn v. Darrel luntio?, Warden
1.

I

STATEMENT OF THE CASE
On September 9, 2015, Mr. Sirnon Quinn was indicted for the Second Degree Murder of Robbie
Conioti and the Obstruction of Justice by tampering with evidence wit the specific intent of disioiting
tlie results of any criminal investigation or proceeding in which a sentence of death or life
imprisonment may be imposed.1 Mr. Quinn's trial began on July 18, 2017 and concluded on July 21,
2017, when he was convicted on both counts (R. at 534).
On August 16, 2017, the trial court denied Mr. Quinn's motions for Post-Verdict Judgment of
Acquittal and New Trial (R. at 32). On September 14, 2017, the trial court found Mr. Quinn to be a
habitual offender, with one prior felony conviction - Possession of a Schedule IV Controlled
Dangerous Substance, for which Mr. Quinn had been sentenced to Probation (R. at 33).
On October' 5, 2017, Mr. Quinn was sentenced to life imprisonment on the Second Degr ee Murder
conviction (R. at 724-5). For the Obstruction of Justice conviction, Mr. Quinn was sentenced as a
habitual offender to fifty (50) years, to be served consecutive of the life sentence (R. at 728). Defense
counsel moved orally to reconsider the fifty-year sentence for Obstruction of Justice, arguing that it
was excessive (R. at 728).
On March 27, 2019, the Louisiana First Cir cuit Court of Appeal reversed Mr. Quinn's conviction
for Second Degree Murder and affirmed his conviction for Obstruction of Justice. Mr. Quinn then filed
a Pro-Se Writ Application seeking review of the 1st Circuit's affirmation of the conviction of
Obstruction of Justice and re-urging his claim of excessiveness of sentence. On January 14, 2020, the
Louisiana Supreme Court Granted Mr; Quinn's request for review. On February 5, 2020, Mr. Quinn
filed his Rro-Se Brief on the Merits.
On February 14, 2020, the Louisiana Sup erne Court appointed the Trlane Criminal Law Clinic to
represent Mr. Quinn on this matter. On March 16, 2020, the Tnlane Criminal Law Clinic timely filed a
1 Record (ha'anafte-“R." at 35.
\V^^xi05VC5\Jp-dccristcrice60Vli1y Dcajmente\diente\Q\Qiilnn Simon # 17282.l\Quinn Simon USCERTodt
S&mm Qiimi v. Darrel I hmiop, V/arden
2.

Supplemental Brief. Oral arguments were held, with the Tillan e Criminal Law Clinic arguing Mr.
Quinn's Appeal before the Justices. On September 9, 2020, the Louisiana Supreme Court affirmed the
Is* Circuit's ruling (reversal of the Second Degree Murder conviction and affirmation of the Obstruction
of Justice conviction).
Mr. Quinn now timely files for Writs of Certiorari to this Honorable Court, and respectfully
requests that this Honorable Court exercise its Supervisory Authority of Jurisdiction over the lower
courts for the following reasons to wit:

STATEMENT OF THE FACTS
hi the Spring of 2015, Robbie Coulon was living in Mr. Quinn's apartment (Mr. Coulon's fiiend)(R.
At 346). Mr. Coulon had posted on Facebook that he was planning to end his life (R. at 378). On May
7,2015, Mr. Quinn came back to his apartment from his job offshore (R. at 399). That day, Mr. Coulon
and Mr. Quinn exchanged text messages, in which Mr. Coulon said, “I cant take this anymore. I'm
finished. Done;.*> < Til take care of myself the one way I know how,” and “You have a very sari all
window and then I'm gone” (R. at 572-3).
When Mr. Quinn and his friend Jeanie Gamble arrived at Mr. Quinn's apartment, Mr. Coulon was
not there (R. at 399). Mr. Quinn and Ms. Gamble stayed at the apartment for a short time then left (R.
at 400). That afternoon, Mr. Quinn and Ms. Gamble returned to Mir. Quinn's apartment (R. id 404). Ms.
Gamble and Mr. Quinn walked into Mr. Quinn's bedroom. Mr: Quinn then left his room for less than
five minutes, which Ms. Gamble stayed When Mr. Quinn came back into his room, he was pale white
and shaking. Id. He told Ms. Gamble that “I can't believe it, I can't believe it, he did it,” then clarified
that Mr. Coulon had killed himself (R. at 404-5).
After finding Mr. Coulon's body, Mr. Quinn did not want to call the police because he had open
warrants and was afraid of being arrested on those warrants (R. at 406). Mr. Quinn was especially

1

\^epd05ycs\jp-cton$fcwTc.e80\My D<xximents\dlsnts\Q\Qi.)lm Simon # 172821\Oulpn Simon USCERTodt

Simon Quinn v. Darrel Muurc^, IVarden

3.

concerned about losing his visitation with his children if he were arreted on the warrants (R. at 390,
405-6).

STANDARD OF REVIEW
In State v. Astilev. 33,880, at *3 (La. App. 2s* Cir. 10/04/00), 768 So. 2d 817, 819, the Court noted
that, “the accused may be entitled to an acquittal ... if a rational trier of fact viewing the evidence in
accord with Jackson v. Virginia. 443 U.S. 307, 99 S.CL 2781, 61 L.EcL2d 60 (1979), in the light most
favorable to the prosecution, could not reasonably conclude that all of the elements of the offense have
been proven beyond a reasonable doubt.”
LAW AND ARGUMENT
ISSUE NO. 1
A. The evidence was insufficient to sustain Mi'. Quinn's conviction of Obstruction of
Justice.
Hie State failed to submit evidence sufficient to support Mr. Quinn’s conviction Obstruction of
Justice. LSA-R.S. 15:438: Jackson v. Virginia: State v. Jones.
In flits case, there was NO corroborating evidence to substantiate Mr. Quinn's conviction of
Obstruction of Justice. There was no physical evidence, no DNA evidence, and no witnesses to this
crime. Hie State's entire case was based on flimsy allegations which die Record fails to support, either
in evidence or testimony. Furthermore, ther e was no testing of any of the evidence which had been
recovered from either of the crime scenes.
Detective Billy Dupre testified drat, in the surveillance video from Home Depot, a White male
subject had purchased a container, marrila rope and cashews (Rec.pp. 428-9), and had placed the items
in what appeared to be a red truck (Ree.p. 430). This White male subject “appeared” to be similar in
stature to Mr. Quinn (Ree.p. 431), but there was no “positive” identification of Mr. Quinn as the White
male subject (Rec.pp. 438,442).

\V^^xl05yc^\|p-dcx)nstance80V'lly l>xi.imente\dlente\Q\CXrnn Simon # 172S?l\Oi^nn Simon USCERTodt
Simon Quinn v. Darrel Mmne?, Warden
4.

Although tine State stressed the importance of the “red truck” during the tr ial, it wart noted during
the testimony of Del Dupre that, “Whim you're looking for a certain truck, you seem to find a lot of
that vehicle” (Rec.p. 440), and that he never counted the red trucks in the surveillance video from
Horne Depot (Rec.p. 440).
Through tire testimony of Lt. Glynn Prestenbach, the State was able to submit tire movements of a
“red truck” which traveled towar ds Cocodrie (Ree.pp. 547, 550,553), ther e was no testimony that Mr.
Quiun had been driving this particular “mi truck,” or that there was a body (or tote) inside the bed of
this “red truck.” Tire State's case is based purely upon speculation which could not be supported by any
evidence or’ testimony.
The State has also attempted to support their theory based upon normal, everyday items which ate
found in practically every household in this nation (black electrical tape (which was found on the
second search) and black garbage bags). The State was also unable to support its theory that Mr. Quinn
had purchased a tote at Home Depot; and failed to even attempt to present ary type of theory as to how
Mr. Quinn got Couion's body down three (3) flights of stairs during daylight hours3 in a relatively busy
apartment complex.
During his testimony, It. Prestenbach testified that upon his arrival, he could tell that the victim in
the tote had no hair on his head (Rec.p. 562). However, during the course of the trial, it was learned
that when officials arrived at tire scene, the head had been covered with a black plastic bag, and secured
with black electrical tape (Rec.p. 526). This bag had not been removed until the Coroner's Office had
arrived to secure tire body. One mud note that Lt. Prestenbach would not be able to determine that the
victim was bald-headed until the bag had been removed.
Hie evidence indicates that the decedent was 5'10” tall and weighed 160 pounds (Rec.p. 467), and
2 According to the testimony, Mr, Quinn allegedly transported Robbie's body during daylight hours where the truck was
allegedly seen in surveillance videos
\V^erK®5VC5\jp-ckxHTStance60\My Documented iente\Q\C\iinn Simon # 172821\Qulm Simon USCERTodt
Simon Quinn v. Darrel Phnnqp, H arden
5.

that Mr. Quinn's apartment was located up three flights of stairs (Rec.p. 605). The State did not present
any evidence as to how the body was placed in the tote, carried down the stairs to the truck, placed in
the truck, and removed from the truck, hr Closing Arguments, the prosecutor stated that Mr. Quinn
“eventually fimneled this box down to his b uck, loaded up” and headed south to get rid of the body
(Rec.p. 648).
The convictions in this case rest solely on weak circumstantial evidence. The State knew the
evidence in this case was weak as indicated by the Slate's offer of a plea to Mr. Quinn whereby he
would plea only to Obstruction of Justice in exchange for a twenty-five year sentence without the

multiple bill.
The Due Process Clause of the Fourteenth Amendment protects paeons accused of a crime against
conviction unless the State proves every element of tire offense beyond a reasonable doubt. In re
Wmskip. 397 U.S. 358,90 S.Ct. 1068, 25 L.Ed.2d 368 (1970).3 Jacksmv. Virginia. 443 U.S. 307,99
S. Ct. 2781,61 L.Ed.2d 60 (1979).
hi Jackson, the United States Supreme Court reached the legal standard of review, Le., “. . .
whether, after viewing the evidence in the light most favorable to the prosecution, any rational trier of
fact could have found the essential elements of the crime beyond a reasonable doubt...” In the court’s
view, the factfinder’s role as weigher" of evidence was preserved by considering all of the evidence in
the light most favorable to the prosecution:

.. Tire criterion thus impinges upon ‘jury’ discretion only

to die extent necessary to guarantee the fundamental protection of due process of law.” Jackson. 443
U.S. at 319, 99 S.Ct., at 2790, 61 L.Ed.2d at 573-574. This standar d is applied with “explicit reference
to the substantive elements of the criminal offense as defined by state law.” id. at 324 il 16, 99 S.Ct. at
2791 n. 16. Dupuv v, Cain. 210 F.3d 582 (5® Cir. 2000).
3 This type of eircr has been recognized as patent error preventing conviction for the offense, La. C.Cr.P. art. 920(2), see
v. Cmsiv. 338 3o.2d 584, 588
(La. 1976).
\^epd05VCS\Jp-ctonst«nce80\My Doa^mentsWients\Q\Qi.^nn Simon # 1 ?2e2i\Qu!m Smm USCfBTodt

Simon Quinn v. Darrel limnqp, Warden

6.

Hie deferential standard of review, whereby reviewing courts must affirm a conviction if, after
viewing the evidence and all reasonable inferences in the light most favorable to the prosecution, any
rational bier of fact could have found the essential elements of the crime beyond a reasonable doubt,
does not permit the type of fine-grained factual parsing necessary to determine that the evidence
presented to the factfinder was in “equipoise,” and that therefore reversal of the conviction is
warranted; abrogating United States v. JaramUlo. 42 F.3d 920 (5* Cir. 1995), United States v. Orteaa
Reyna. 148 F.3d 540 (5th Cir. 1998), United States v. Penaioza-Duarte. 473 F„3d 575 (5th Cir. 2006),
and, United States v, Stewart,. 145 FJd 273 (5* Cir. 1998), Criminal Law Key 110k! 159.2(1).
Courts reviewing a conviction are empowered to consider whether the inferences drawn by a jury
were rational, as opposed to being speculative or insupportable, and whether the evidence is sufficient
to establish every element of the crime. Criminal Law Key HOkl 159.2(8).
The Jackson standard, which has been repeatedly reaffirmed by the Supreme Court, may be .
difficult to apply to specific eases but is theoretically straightforward In contrast, the “equipoise rule”
is ambiguous. At one level, whether it applies only to cases ungirded by circumstantial evidence, as
opposed to direct or circumstantial evidence, is not entirely clear. Moreover, no court opinion has
explained how a court determines (hat evidence, even when viewed most favorably to the prosecution,
is “in equipoise.” Is it a matter of counting inferences or of determining qualitatively whether
inferences equally support a theory of guilt or innocence?
Nevertheless, the Jackson standard does not perm it jurors “to speculate if the evidence is such that
reasonable jurors must have a reasonable doubt Slide v. MussaJL 523 So.2d 1305, 1311 (La. 1988)
(quoting 2 C. Wright, Federal Practice & Procedure Criminal 2d § 467 at 660-61 and n.23 (2d ed.
1982), Based on the evidence presented, the jury could only speculate that Mr, Quinn was guilty of
Obstruction of Justice. State v. Jones. supra at *3.
\V^epd0^CS\lp-cfeDnsbrK*60\N1y DocumRnte\dient5\Q\Oi)im Simon #17282.t\Qu!m Simon USCERT.odt
Slmm Quinn v. Darrel Vnnnqp, Warden
7.

While an inference drawn from circumstantial eviction must mere than speculation to be
reasonable, the jury has wide latitude to determine factual issues aid to draw reasonable inferences
from circumstantial eviction. 110K745. Inferences from evidence. However, in this case, there could
be no reasonable inferences fr om the circumstantial evidence.
hi any event, when appellate courts are authorized to review verdicts of conviction for evidentiary
“equipoise,” they must do so on a cold appellate record without the benefit of the dramatic insights
gained from watching the trial. The potential to usurp the jury's function in such circum stances is
inescapable. Jackson's “deferential standard” of review, however, “does not permit the type of fine­
grained parsing” necessary to determine that the evidence presented to the factfinder was in
“equipoise.” Compare: Coleman ». Johnson. 132 S.Q. 2060,2064,182 L.Ed.2d 978 (2012).
Jadksm also “unambiguously instructs that a reviewing court, 'faced with a record of historical
facts that supports conflicting inferences must presume - - even if it does not affirmatively appeal in the
lecord - - that the trier of fact resolved any such conflicts in favor of the prosecution, and must defer to
that resolution.*” Cavazos y. Smith. 132 S.CL 2,6,181 L.Ed.2d 311 (2011).
This case gives the Court lire opportunity to give concrete substance to the rule of law that
contradictory testimony, sueh as incredible, inherently improbable or impeached testimony, is
insufficient to uphold a conviction.
Farther, incredible, contradictory, or impeached testimony fails to establish a corpus delicti in the
first instance, and also goes to the Mnskip standard at trial.
“The rule as to circumstantial evidence is that, assuming every fact to be proved that the evidence
tends to prove, in order to convict, it must exclude every reasonable hypothesis of innocence. LSA-R.S.
15:438. However, this statutory rule is not a purely separate test from the Jackson standard to be
applied instead of a sufficiency of tire evidence test whenever the state relies on circumstantial

\AMepd0Syc,S\|p-cfcon^mTce80\My Docxim«rteWlents\Q\CXJm Simon # 172821\Qulrr> Simon ISCERTodt
Simon Quinn v. Darrel lunnop, Warden
8.

evidence to prove an element of die crime. State v. Wright. 445 So.2d 1198 (La. 1984); State v. Eason.
460 So.2d 1139 (La. App. 2^ Cir. 1984), writ denied 463 So.2d 1317 (La. 1985). Although the
circumstantial evidence rule may not establish a stricter standard of review than the more general
reasonable juror's reasonable doubt formula, it emphasises tire need for careful observance of the usual
standard and provides a helpful methodology for its implementation in cases which hinge on the
evaluation of circumstantial evidence. State ». Chism. 436 So.2d 464 (La 1983)); State v. Sutton. 436
So.2d 471 (La 1983). Ultimately, all evidence, both direct and circumstantial, must be sufficient under
Jadeson to satisfy a rational juror that the defendant is guilty beyond a reasonable doubt. State v.
Wright* supra; State y. Eason. supra.” State v. Copes. 566 So.2d 652, 654 (La App. 2^ Cir. 1990).
When, as her e, the conviction rests upon circumstantial evidence, that: evidence must exclude every
reasonable hypothesis except guilt. LSA-R.S. 15:438. When, as here, the conviction rests upon
circumstantial evidence, that evidence must exclude every reasonable hypothesis except guilt. Whether
circumstantial evidence excludes every reasonable hypothesis of innocence presents the following
question of law:
In all cases where an essential dem ent of die crime is not proven by direct evidence, LSAR.S. 15:438 applies. As an evidentiary rule, it restrains die factfinder [in the first instance, as
well as the reviewer on appeal, to accept as proven all that the evidence tends to prove and then
to convict only if every reasonable hypothesis of innocence is excluded. Whether
circumstantial evidence excludes every reasonable hypothesis of innocence presents a
question of law. State y. Hammtmtree. 363 So.2d 1364, at 1373 (La. 1978); Smith y.
Sckwander. 345 So.2d 1173, at 1175 (La. 1977); State v. Smith. 339 So.2d 829, at 833 (La.
1976). In applying LSA-R.S, 15:438, ail the facts that the evidence variously tends to prove
on both sides are to be considered, disregarding any choice by the factfinder favorable to
flie prosecution. The reviewer as a matte* of law can affirm the conviction only if the
reasonable hypothesis is one favorable to the State and there is no extant reasonable hypothesis
of innocence.4
State & Shapiro, pp. 19-20,431 So.2d 372 (La 1982)[emphasis added],
"Hie standard of review for the sufficiency of the evidence to uphold a conviction is whether or
not, viewing the evidence in the light most favorable to the prosecution, a rational trier of fact
4 suae r. Shaatrv. pp. l?-20,431 So.2d 372 (La. 1982)[emphasis added].
\V^epd05VCS\Jp-cfconstance80V4y DccLiments\dlents\Q\Ouim Simon # 17?821\Qi.iim Simon USCERTodt
Simon Quinn v. Darrel i-iumegt, Warden
9.

could conclude that Hie SMe proved the essential elements of the crime beyond a reasonable
doubt.”
The rule regarding circumstantial evidence is set forth in LSA-R.S. 15.438 as follows:
• • assuming every fact to be proved that the evidence tends to prove, in order to convict, it
must exclude every reasonable hypothesis of innocence.”
Ultimately, all the evidence in the record, viewed in a light favor able to the State, must satisfy the
reviewing court that a rational trier of fact could have found tire defendant guilty of the crime for which
he was convicted, beyond a reasonable doubt. State r. Perm. 616 So.2d 1336 (La App. 3* Cir. 1993).
When reviewing a conviction based upon circumstantial evidence, which requires tire reviewing
court to determine whether a reasonable trier of fact could have concluded beyond a reasonable doubt
that every reasonable hypothesis of innocence had been excluded, the reviewing court does not
determine whether another possible hypothesis has been suggested by defendant which could explain
tire events in an exculpatory fashion; rather, tire reviewing court evaluates the evidence in the light
most favorable to the prosecution and determines whether the alternative hypothesis is sufficiently
reasonable that a rational factfinder could not have found proof of guilt beyond a reasonable doubt.
State V. Junes, 2016-K-1502, 2108 WL 618433 (La 1/30/18); Jackson v, Virginia. Sixth and
Fourteenth Amendments to the United States Constitution; H0kll59.6 Circumstantial evidence.
In cases of circumstantial evidence, the Jackson, standard means that when a jury “reasonable
rejects tire hypothesis of innocence pr esented by the [defense], that hypothesis falls, and Are defendant
is guilty unless there is another hypothesis which raises a reasonable doubt” State y. CaptviUe. 448
So.2d 676,680 (La 1984).
The Louisiana Supreme Court has repeatedly cautioned that the Due Process standards of Jackson
y. Virginia. 443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed2d 60 (1979), “does not permit a reviewing court to
substitute its own appreciation of the evidence for that of the fact finder or to second guess tire
credibility determinations of the fact finder necessary to render an honest verdict.” S&aie y. Calloway. 1
\V^<?^5ycS\Jp-cb3nsb>nc«60\Nly Dcwjrnente\dlents\Q\Qi»nn Simon # 1728?l\Quim Simon USCfERTodt

&mm Quinn y. Darrel

Warden

10.

So.3d417,422 (La. 1/21/09).
Nevertheless, the Jackson standard does not permit jurors “to speculate if the evidence is such that
reasonable jurors must have a reasonable doubt. Slate t. MussalL 523 So.2d 1305, 1311 (La 1988)
(quoting 2 C. Wright, Federal Practice & Procedure. Criminal 2d § 467 at 660-61 and n.23 (2d ed
1982)). Based on the evidance presented, the jury could only speculate that Mr. Quiim was guilty of
Obstruction of Justice. State v. Jones, supra at *3.
It must be rioted that in the First Circuit's Ruling concerning the Issue concerning the Obstruction
of Justice, the Court heasily relied upon circumstantial evidence in determining that the State met its
burden of proof in obtaining this conviction.
WHEREFORE, for the masons stated above, and for the reasons argued in the original pleadings in
the state courts, Mr. Quinn respectfully requests that this Honorable Court, after a thorough review of
the merits of this Issue, invoke its Supervisory Authority of Jurisdiction over the lower courts of this
state, and determine that Mr. Quinn's conviction was obtained with insufficient evidence; and grant the
necessary relief in this rn after.
B. Because the State was unable to rule out Suicide, it could not prove the necessary
specific intent and knowledge dements of Obstruction. Without proof of all four dements
there was insufficient evidence to convict.
Hie crime of Obstruction of Justice is any of tire following when committed with the knowledge
that sudi ad has, reasonably may, or will affect an actual or potential present, past, or future criminal
criminal proceeding.
Specific intent “is that state of mind which exists when the eireurn dances indicate that the offender
actively desired the prescribed criminal consequences to follow his act or failure to ad’' LSA-R.S.
14:10(1).
Hue nature of Obstruction of Judice by tampering with evidence is that it is connected to another

\V^epd05\(CS\Jp-cfconjibince80Wyl>o3jmenta\diepte\Q\0i.ilnn Simon # 1728?.1.\Ouipn Simon USCERTodt

Simon Qtlnn v. Darrel l&nnoy, V/arden

11.

criminal investigation or proceeding. There are four essential elements of obstruction by tamper ing
with evidence; (i) the movement of au object, (ii) at the location of an incident the defendant knows or
has good reason to believe will be subject to criminal investigation, (iii) with the specific intent, the
active desire, to distort the results of a criminal investigation or proceeding, and (rv) with the
knowledge that such act reasonably may affect an actual or potential criminal proceeding. Three of
these four elements of Obstruction of Justice by tamper ing with evidence link to an investigation or
proceeding into another related crime.
In analyzing the Obstruction of Justice charge against Mr. Quinn, the State, the Louisiana First
Circuit Court of Appeal, and tire Louisiana Supreme Court neglect all but tire first of these four
elements. The First Circuit stated, “we find that any rational juror could have concluded that the
defendant disposed of Coulon's body. Accordingly, we find that tire Slate proved beyond a reasonable
doubt that the defendant was guilty of Obstruction of Justice by tampering with evidence.”* Similarly,
the State ar gues that the Obstruction of Justice charge was proved beyond a reasonable doubt because
“the state presented] more than enough evidence to show that Simon Quinn moved the body.” The
State and the courts only address the first of the four elements. Tire law requires more.
To prove Mr. Quinn guilty of Obstruction of Justice by tampering with evidence, the State had to
prove that Mr. Quinn: (i) removed Mr. Coulon's body, (ii) from a location that Mr. Quinn new or had
good reason to know would be subject to a criminal investigation, (iii) with the specific intent of
distorting the results of that criminal investigation or a proceeding that arose from it, (iv) with tire
knowledge that removing the body reasonably may affect that criminal investigation or proceeding.
lire State also failed to rule out the alternate hypothesis for the Obstruction charge that was
introduced in tire trial testimony - that Mr. Quinn was covering up an open wan ant against him, not a

3 Stm * Qn&tm, 273 3o.3d 360, 371 (La App. 1 * Cir. 2019).
I

\Wepd05\lGS\jp- c±cn'-terr.e80Wy Docijmente\dlente\QVQulnn Simon # 172821\Q»Jnn Si men tJSCERT.ocH:

Sbmm iQuinn v. Darrel Mrnnay, Warden

12.

murder. By the end of trial, it was still an open possibility that Mr. Couion's death was a suicide. Even
if tlie State did have sufficient evidence to show that Mr. Quinn removed the body from the scene, it
did not rule out tire vary reasonable hypothesis that he did so because he kuew that repotting the
suicide death would lead to the police interacting with him and possibly tunning his name through their
system.

Under Jackson. the State must show that any rational trier of fact could have found ail of tire
essential elements of the crime beyond a reasonable doubt (443 U.S. 307,318 (1979). Moving the body
to avoid interaction with the police is not sufficient to prove Mr. Quinn knew there would be a criminal
investigation in his apartment, and that he specifically intended to distort that criminal investigation,
and that he knew that removing the body would distort that criminal investigation.
Having failed to prove there was crime it is axiomatic that the State has failed to prove that Mr.
Quinn had the requisite knowledge or intent to obstruct a criminal investigation,
C. The State's burden was to prove that Mr. Quinn was guilty of Obstruction of Justice by
tampering with evidence In a Murder Investigation, not just obstructing any type of
criminal investigation.
Mr. Quinn's conviction for Obstruction of Justice relies on the criminal proceeding obstructed. Mr.
Quinn was indicted for “obstract[ing] justice by tampering with evidence with the specific intent of
distorting the results of any criminal investigation or proceeding in which u sent mice of death or life
imprisonment may be imposed" (R. at 35: emphasis added). To prove him guilty beyond a reasonable
doubt, tlie State had to prove Mr. Quinn acted with knowledge of a criminal proceeding in which a life
or death sentence may be imposed and specifically intended to distort the results of such a proceeding.
As stated above, there are four essential elements of Obstruction of Justice by tampering with
evidence: (i) the movement of an object, (ii) at the location of an incident the defendant knows or has
good reason to believe will be subject to criminal investigation, (iii) with the specific intent to distort

\V^epc05VCS\jp-cfc»nsbnce80\My Documented lePte\Q\Q.iinp Simon # 172821\Oulnr> Simon USCERT.odt

Simai Quinn v. Darrel ttmncg?, Warden

13.

the results of a criminal investigation or proceeding, and (iv) with the knowledge that such act
reasonably may affect an actual or potential criminal proceeding. The second half of the statute lays out
the possible penalties:
(1) When the obstruction involves a criminal proceeding in which a sentence of death or life
imprisonment may be imposed, the offender shall be fined not more than one hunched thousand
dollars, imprisoned for not more than forty years at hard labor, or both.
(2) When the obstruction of justice involves a criminal proceeding in which a sentence of
imprisonment necessarily at hard labor for any period less than a life sentence may be imposed,
the offender may be fined not more than fifty thousand dollars, or imprisoned for not more than
twenty years at hard labor, or both.
(3) When the obstruction ofjustice involves any other criminal proceeding, the offender shall
be fined not more than ten thousand dollars, imprisoned for not mrare than five years, with or
without hard labor, or both.
There are two ways to read the plain language of this statute. One interpretation is that Obstruction
must always be linked to the criminal proceeding obstructed, so we must read the elements set out in
the first part of the statute alongside the grades of offense set out in the penalty provisions. Under this
interpretation, to convict someone of Obstruction of Justice involving a criminal proceeding in which a
sentence of death or life imprisonment may be imposed, the State is required to prove beyond a
reasonable doubt that tire defendant (i) altered or r emoved an object, (ii) at the location of an incident
the defendant knows or has good r eason to believe will be subject to investigation for a crime for which
death or life may be imposed, (iii) with tire specific intent to distort the results of an investigation or
proceeding into a crime for which death or life may be imposed, and (iv) with the knowledge that such
act reasonably may affect tire proceeding in which death or life may be imposed
The other interpr etation of tire Obstruction statute is to read the substantive and penalty provisions
completely separately. Under this interpretation, tire State is required to pr ove beyond a reasonable
doubt only that the defendant (i) altered or' removed an object, (rr) at the location of an incident tire
defendant knows or has good reason to believe will be subject to in vestigation for any reason at all, (iii)

\^epd05yCS'Jp-ctorwtancs80^1y l>xwmenfr\dlerite\Q\Qirm Simon # 172821\QiJm Simon USCERTodt

Simm Quinn v. Darrel Vdnnc$, Warden

14.

with the specific intent to distort the results of some kind of investigation or proceeding, and (hr) with
the knowledge that such ad may affect some kind of criminal proceeding. Only st sentencing does it
become relevant what specific criminal proceeding was obstructed. This second possibility permits
unfair and absurd outcomes, as demonstrated in the following example:
Consider the situation where person A arrives at the home of her friend, person B. B tells A that the
police are about to come search his house and asks A to do him a favor and hide a bag of pills. A,
wanting to protect her friend from being charged with drug possession, takes the pills from B arid bides
them in her closet. Clearly, A has intentionally removed an object from a location she knows will be
subjed to investigation with the knowledge that ha' removing tlid object may affect a criminal
investigation against B and the specific intent to di&ort the investigation into B. However, it turns out
that the pills are not recreational street drugs, as A had believed, but Cyanide pills, and the police are
coming to B's house to investigate a murder by poisoning.
Under the first reading of the Obstruction statute, in which the statute is read as a whole, A could
not be convicted of obstructing justice by tampering with evidence involving a criminal proceeding in
which a sentence of death or life imprisonment may be imposed, as she only specifically intended to
distort a simple drug possession investigation, not a murder investigation. However, under the second
reading, in which the substantive and penalty pieces of the statute are construed separately, A could be
convicted of Obstruction of Justice by tampering with evidence and sentenced up to forty years because
die simply intended to distort the results of art investigation and the proceeding involved turned out to
be for murder. Even though A only knew Ural there may be and specifically intended to distort a simple
drug possession proceeding, the second interpr etation of the statute would permit her to be convicted of
and sentenced for obstructing a murder investigation.

\y^epd05\ICS\Jp-dainst/rioeSO\My Doajmcnte\dlents\Q\Qi<nn Simon # 1 ?2821\Ouim Simon USCERTodt
Simon Qtinn v. Darrel Wrnnqp, Warden
15.

i) Tne rales of statutory interpretation support the idea that the State had to prove Mr. Quinn
was guilty ofknowingly and intentionally obstructing a murder investigation or proceeding.
Tins case raises what appears to be the novel issue of how to properly interpret the Obstruction of
Justice statute. Although the question is new, tire canons of construction that provide the answer have
deep roots. The rules of statutory interpretation require the first, holistic reading of the Obstruction
statute:
It is a well-established tenet of statutory construction that criminal statutes are subject to strict
construction under the rule of lenity ... Thus, criminal statutes are given a narrow interpretation
and any ambiguity in the substantive provisions of a statute as written is resolved in favor of die
accused and against the State .. *
The rule of lenity applies to penalty provisions as well as substantive.7 Here, there are two possible
readings of the Obstruction statute. One would allow the absur d result that A receives a forty-year
sentence because site acted with knowledge and specific intent to obstruct a drug proceeding but the
proceeding turned out to be about murder. The other would allow A to be convicted and sentenced for
only tire crime she had knowledge and specific intention to commit This ambiguity must be resolved in
favor of the accused and against the State. The rale of lenity requires that for a conviction of
obstructing justice by tampering with evidence involving a proceeding iri which death or life may be
imposed, the Slide prove beyond a reasonable doubt that the defendant (i) altered or removed an object,
(ii) at the location of an incident the defendant knows or has good reason to believe will be subject to
investigation as a crime for which death or life may be imposed, (iii) with specific intent to distort the
results of an investigation or proceeding into a crime for which death or life may be imposed, and (iv)
with the knowledge that such act reasonably may affect a proceeding in which death or life may be
imposed.
Under the vagueness doctrine, a law must “give a person of reasonable intelligence adequate
6 Stele « C«»; 761 3o.2d 1271, 1274 (La. 2000)(dt8ticns emitted).
7 -State k Cam&dt, 877 3o. 2d 112,118 (U 2CC4).
\Y4epd05ycSNJp-dron3foinc@80y4y|>xumentoVdiente\Q\Qi.ilnn Simon #17282.t\Qu!nn Simon USCSiT.adt
&mon Quinn v. Darrel Vannoy, Warden
16.

notice’ of the prohibited conduct and how it is punishable.8 The key to this doctrine, as recognized by
tlie United States Supreme Court, “is the requirement that a legislature establish minimal guidelines to
govern law enforcement” LSA-R.S. 14:130.1(B)(l)-{3). Adoption of the second reading of the
Obstr uction statute, in which the questions of whether there was obstruction and what was obstructed
are asked separately, would allow situations like A's, in which it is impossible for a person to be on
notice of tire extent of punishment he or she is risking with certain behavior. This interpretation would
allow the unfettered discretion of law enforcement to charge and convict people of Obstruction of
Justice. As the sentencing provision mandates only that the obstruction “involveQ a criminal
proceeding” of a particular grade, A's situation could become even more bizarre and unjust if that
provision were read to be completely separ ate from the elements of the crime. LSA-R.S. 14:3. It is har d
to imagine that the results enabled by the broader interpretation of tire Obstruction sMute are what its
drafters intended.
it) The State failed to prove Mr. Quinn had knowledge or specifically intended to distort a
murder investigation orproceeding.
Under Jackson ». Virginia and the propel interpr etation of the Obstruction statute, we must ask
whether any rational jura could have found beyond a reasonable doubt that (i) Mr. Quinn moved Mr.
Coulon's body, (ii) at the location of an incident Mr. Quinrr knew or had good reason to know would be
subject to investigation into a murder, (iii) with specific intent to distort the results of a murder
investigation or proceeding, and (iv) with tire knowledge that such ad reasonably may affect a morder
proceeding. The State failed to meet its but den on these essential elements, as it failed to exclude the
reasonable alternate hypothesis that Mr. Quinn had no reason to know that Mr. Coulon's suicide would
lead to a murder proceeding and intended only to avoid contact with authorities who may discover* Mr.
Quinn's outstanding, unrelated warrants.
8 State r MorJUtaf, 706 So.2d 4 29,432 (La. 1998).
\V^epd05VC5\|p-cfoDnstance80\My Doajments\dlents\Q\C\iinn Simon # 172821\Ouim Simon USCERT.odt
Simon Quinn v. Darrel Virnnqp, Warden
17.

As the Stale failed to prove that Mr. Caul on was murdered, it failed to prove that Mr. Quinn had
reason to believe there would be a murder investigation or a murder proceeding. Reviewing tire record,
we find Ms. Gamble's testimony that Mr. Quinn told her of his belief that Mr. Coulon killed himself (R.
si 405). The record also contains testimony from Ms. Gamble and Ms. Quinn that after finding Mr.
Coulon's body, Mr. Quinn's driving motivation was to avoid coming in contact with the police and
being arrested on old warrants (R. at 390,405-6). Ms. Gamble testified that Mr. Quinn was especially
worried about being arrested on is open warrants because he had just regained the privilege of spending
time with his children and did not want anything to interfere with his ability to see them (R. at 405-6).
This evidence established a reasonably hypothesis that after Mr. Coulon's death, Mr. Quinn's mind was
not occupied by the intention to cover up a murder, but the intention to stay away from the police.
Even if this Court finds that there was sufficient evidence to prove that Mr. Quinn moved the Mr.
Coulon's body, this Court must find that there was insufficient evidence to prove Mr. Quinn guilty of
Obstruction of Justice. As the United States Supreme Court said in Jackson, “[tjlre constitutional
necessity of proof beyond a reasonable doubt is not confined to those defendants who are morally
blameless.*' Jacksonv. Virginia, 443 U.S. 307, 323 (1979).
Moving Mr. Coulon's body may very well satisfy the elements of a different offense, such as
Unlawful Disposal of Remains (LSA-R.S. 8:652). But, to uphold Mr. Quinn's conviction for
Obstruction of Justice by tanperirrg with evidence, this Court would have to fiud that the State proved
beyond a reasonable doubt that Mr. Quinn knew his actions may affect a murder proceeding and
specifically intended to distort the results of a murder investigation or proceeding. Tire State has failed
to meet this burden; therefore, this irrational conviction must be overturned.

\^epc©5^C5\)p-dOTTrt«rice8OV^yDoaim0Tt5Viient!!\Q\Qi^m Simon #17282i\QiJm Simon USCERTodt
Sbmovi Quinn v. Darrel Humcy, Warden
18.

D. The Courts has recognized that the crime of Obstruction of Justice by tampering with
evidence is necessarily connected to another crime. If the conviction for the underlying
conviction is vacated, as Mr. Quinn’s murder conviction has been, the conviction for
Obstruction must also fall
In Slate v, CdeMl/te. 671 So.2d 896, 898 (La 1996), the Louisiana Supreme Court vacated a
defendant's for Distr ibution of Cocaine and entered a judgment of Simple Possession. Hie defendant
had also been convicted of Obstruction of Justice by tampering with evidence. Id., at 898. The
Louisiana Supreme Court held that the defendant was indeed guilty of Obstruction but remanded to the
district court for resentencing. Id Mr. Celesiine had been sentenced for Obstruction of Justice
involving the Distribution of Cocaine and needed to be sentenced instead for Obstruction of Justice
involving the Simple Possession of Cocaine. Id. The Louisiana Supreme Court recognized that Mr.
Celestine’s conviction for Obstruction of Justice by tampering with evidence was inextricably linked to
his conviction for the crime he was obstructing: when tire drug charge changed from Distribution to
Simple Possession, the Ob^raction by tampering charge changed as well.
As in Cdestine. Mr. Quinn's conviction for Obstruction of Justice was tied to his conviction for
Second Degree Murder. The State, in failing to prove that Mr. Coulon was murdered, also failed to
prove the essential elements of Obstruction of Justice by tampering that requited knowledge of an
impeding criminal investigation or proceeding. As the change from the Distribution of Cocaine to
Simple Possession of Cocaine altered Mr. Celestine's conviction for Obstruction of Justice, the change
from guilty to not guilty of Second Degree Murder changes Mr. Quinn's Obstruction conviction.
Unlike in Celestine. in this case, the State failed not only present sufficient evidence to sustain Mr.
Qurnn's murder conviction, but also failed to prove Mr. Quinn guilty of a lesser included offense.
Manslaughter and Negligent Homicide, the lesser included offenses for Second Degree Murder, would
each also require tire State to prove beyond a reasonable doubt that Mr. Coulon did not commit Suicide.
Hie murder conviction has been removed, and there is no lesser included offense to replace it, so the
\V^epc£5tyCSVp-cfcxrTsfeince60\My Doajroerto\diepts\Q\Qi.i!nn Simon # 1728?.1.\Oulnn Simon USCERTodt
81mm Qtlmi v. Darrel t&wng?, Warden
19.

Obstruction conviction has no other crime with which to conned. Without the murder to lean on, the
Obstruction of Justice must fall.
SUMMARY
According to Jackson v. Virginia. 443 U.S. 307, 99 S. Ct. 2731, 61 L.Ed.2d 60 (1979) and In re
Winship. 397 U.S. 358,90 S.Ct. 1068,25 L.Ed.2d 368 (1970),9 Mr. Quinn's conviction for Obstruction
of Justice must be reversed.
Recently, in Slide v. Jones 2G16-K-1502, 2108 WL 618433 (La. 1/30/18), this Court found that,
“When reviewing a conviction based upon circumstantial evidence, which requires tire reviewing court
to determine whether' a reasonable trier of fact could have concluded beyond a reasonable doubt that
every reasonable hypothesis of innocence had been excluded, the reviewing court does not determine
whether another possible hypothesis has been suggested by defendant which could explain the events
in an exculpatory fashion; rather, the reviewing court evaluates the evidence in die light most favorable
to the prosecution and determines whether the alternative hypothesis is sufficiently reasonable that a
rational factfinder could not have found proof of guilt beyond a reasonable doubt.” 110kll59.6
Circumstantial evidence.
Nevertheless, the Jackson standard does not permit jurors “to speculate if the evidence is such that
reasonable jurors must have a reasonable doubt. Slate t>. MussalL 523 So.2d 1305, 1311 (La 1988)
(quoting 2 C. Wright, Federal Practice A Procedure. Criminal 2d § 467 at 660-61 and n.23 (2d ed.

1982). Based on the evidence presented, the jury could only speculate that Mr. Quinn was guilty of
Obstruction of Justice. State v. Jones, supra at *3.
During these pr oceedings, the Louisiana First Circuit Court of Appeal relied upon cir cumstantial
evidence in order to affirm Mr. Quinn's conviction of Obstruction of Justice. Hie evidence presented
9 This type of error has been recognized as patent error preventing ecssv icticn for the offense, la. C.Cr.P. art 920(2), see
indicative listing at State r. Gailtat. 200 La. 935, 9 3o.2d 235, 239 (1942). Quoting; State v. Cms&v 338 3o.2d 584, 588
(La. 1970\V^epd05VCSMp-dcxrrsteTTce80iMy DocumentsVdlents\Q\Qulm Simon # 1 ?2821\Qulm Smon USGERTodt
S&mon Qtlnn v. Darrel liwncp, Warden
20.

was: “A while male went to Home Depot and bought a plastic tote.” Although the Court admitted that
the man's face was not clearly visible in the Home Depot surveillance video, the man in the video was
of tile same build and statute (no positive identification). The “white male was driving a red track
(which was similar to the truck that Mr. Quinn drove),” although the detective testified that there were
a lot of red trucks in that area”
The Court also noted that, ‘The defendant's hat with logos matching the hat in the video footage
was located in a friend's vehicle/' There are no notations that this is the same hat that was seen in the
footage; only that it was similar to the one seen in tike video; and that the man was wearing a gray shirt
with a Nike logo and a company symbol on the other side which was similar to a shitt located at Mr.
Quinn’s residence (or which appeared to match the shirt worn by the man in the Home Depot video).10
During testimony, Detective Dupre could uot definitely tell the jury that the person in the video was
Mr. Quinn (Rec.p. 438); and that he couldn't be 100% sur e saying that was Mr. Quinn in the video
(Rec.p. 442); that, “When you're looking for a certain truck, you seem to find a lot of the vehicle,” and
really couldn't inform the jury oftire approximate number of red trades in tire area (Rec.p. 440)
Most importantly, tire State has failed to submit evidence that Mr. Quinn was the person who had
purchased this tote; nor has the State proven that the tote which was purchased from the Home Depot is
the same tote which the body had been found in. Moreover, the evidence presented fails to prove that
Mr. Quinn was tire person driving a red pickup truck which the State speculates to have transported Mr.
CouIon's body.11
Mr. Quinn reiter ates the fact that there was no evidence supporting that Mr. Quinn had placed the
body in atote, carried it down three flights of steps in a busy apartment complex (without being spotted
10 It must be noted that Woods Group B*oduction Services employees over 35,000 employees worldwide, with a largebase
of its operatiens located in Houma, Louisiana
11 There isno actual evidence that Mr Gordon's body was in the bete which was supposedly in the bed of the truck caught
on surveillance video. Itnrastalsobe noted that the fete was meverseen, nor does any of the videotaped evidence show a
tote in the back of the red pickup truck. Speculation on the State's part.
\V'4epd05\ICS^p-cton5tance80\My l>Tximc^\dlenb\Q\Qi.ilnn Simon #l?2821\Qu!nn Simon USCERTodt
Simon Quinn v. Darrel liumqp, Warden
21.

I

V

&

by anyone, including the management), and placed the tote in the back of a pickup truck (without being
seen). The State also failed to prove that Mr. Quinn had driven around with a body in a tote in the bade
of a pickup buck.
In fad, It. Glynn Predenbach testified that the truck in the videos submitted for evidence “'looked
like the truck' Jeanne Gamble told me she let Mr. Quiun borrow” (Rec.p. 550). Lt. Prestenbach also
testified drat he “had no knowledge of who was driving the truck” when discussing the pickup truck in
the videos submitted to the jury (Rec.p. 578).
The Court had also relied on the fact that the search of Mr. Quinn's residence yielded bed sheets
that appeared similar2 to the one found with Couion's body, black electrical tape (which is found in
about every home in America),13 and a bundle of black garbage bags (which can also be found in about
every home in America).H So, in other words, every person who has electric tape and black garbage
bags iu their home, have similar curtains or bedsheets, and work for any company which provides work
clothes could have been convicted iu this matter.
Although the Court relied upon inform^ion from Mr. Quinn's cell phone reveals that his ceil phone
had been in Cocodrie, slightly north of where Couloir's body had been found, this Court must consider
the fact that cell phone towers have a “wide” azimuths in an area such as Cocodrie. There is no
evidence from tire ceil phone which stipulates that Mr. Quinn was even on lire Cocodrie side of the
bayou at the time of the signal being registered on the tower. This Court must also remember that the
State has failed to establish beyond a reasonable doubt that Mr. Quinn's truck was actually the truck in
the surveillance videos.
12 Was this part of a missing set? The State failed to determine whether or not the sheet was part of the same set located at
Mr. Quinn's residence
13 There was no testing conducted to determine if the tape found with the body came from the same roll as the one found in
Mir, Quinn's residence
14 There was no testing conducted to determine if the bag found with the body came from the same roll as the one found in
Mr. Quinn's residence
\V^^x»5VCS^p-cbDnst?rice8CWy DocumepfeV*lenb\Q\Odrri Simon # 1 ?2821\Quim Simon USCERT-odt

Simon Qitlnn v. Darrel Wttmqy, Warden

22.

V

O

The State's entire case relies upon circumstantial evidence and unsubstantiated speculation. The
. State has failed to prove‘any evidence that Mr. Quinn had physically removed, or was responsible for
the ran oval of Mr, Croton's both? from his residence after his demise,
WHEREFORE, for* the aforementioned reasons, tire arguments in Mr. Quinn's pleadings during
Appeal, Mr. Quinn respectfully requests this Honorable Court to invoke its Supervisory Authority of
Jurisdiction over tire lower court; and after a thorough review of the merits of such Grant the relief
deemed necessary by this Court.

\^1^xJ05VCS''jp'dcorstsTce80\f*1yDocxiMi«Tte«\dl{5T{5\Q\Q.iirTi Simon U17282.1.\OtwTi Simon USCERToctt'
23.

S&mat Quinn v. Darrel Wumqp, IVarden

f

CONCLUSION
Hie hypothesis that Mr. Quinn found his roommate dead by suicide, and moved his body to avoid
interaction with police and discovery of open warrants is equally, if not morn, consistent with the facts
than tlte hypothesis offered by the State. Discovering his friend's suicide, Mr. Quinn knew no crime had
been committed. So he had no reason to think a crime would be investigated. He had no reason to
specifically intended to impede a murder investigation, because he did not have any reason to know
dial die body or his apartment would be the location of a murder investigation. Without the specific
intent or mason to know about a homicide investigation, die State simply cannot have met all die
requisite elements required to prove beyoud a reasonable doubt that Mr: Quinn is guilty of Obstruction
of Justice by tampering a murder investigation. There is insufficient evidence to support this couviction
under Jackson v. Virginia.
For the reasons stated above and in the previous filings in the State of Louisiana Courts, Mr.
Quinn's Writ of Certiorari should be gr anted, and this matter be remanded to dre district court for a
dismissal; or in the alternative, a new trial. Mr. Quinn has shown that this conviction is contrary to
clearly established federal law as established by die United States Constitution and the United States
Supreme Corn!; and that reasonable jurists would debate the validity ofthe conviction.

Respectfully (submitted,

Simon Quinn
Date: November 16. 2020

\Wlepd05\lCS'Jp-dca'V'5b9nce®)\MyDocijrnenb5\diente\Q\Qijinn Simon #173B21\Qiinn Simon IJSCERT.odt

Simm Quinn v. Darrel Ihnnqy, Warden

24.

